                                        SBA Home Page




                Office of Inspector General
                           Audit Report


SBA Loan Servicing and Debt Collection Activities
                 Report No. 5-3-H-004-006
                          March 31, 1995


                                Summary

 We completed an audit of SBA's loan servicing and debt collection activities. The
 objective of our review was to evaluate the effectiveness of SBA's loan servicing
 and debt collection procedures for delinquent loans serviced by SBA. In addition,
 we determined whether the current loan collection and deposit procedures resulted
 in effective cash management.

 Our audit found that enhancements to SBA's loan servicing and debt collection
 procedures could substantially increase collections. SBA did not have an
 aggressive program to recover delinquent debt or effective procedures to identify
 cash management improvements. Specifically, we found the following:

 --SBA could maximize collections on delinquent debt and provide for
 management and technical assistance to delinquent borrowers by having loan
 officers intensify their servicing of delinquent borrowers. OMB Circular A-129,
 "Policies for Federal Credit Programs and Non-Tax Receivables," requires
 agencies to establish aggressive programs for recovering delinquent debt and
 effective strategies to return debtors to current payment status. We found loan
 officers:

    o   (1) did not emphasize site visits to delinquent borrowers,
    o   (2) lacked expertise in financial statement analysis,
    o   (3) conducted ineffective site visits, and
    o   (4) did not take aggressive actions to resolve delinquencies. SBA officials
        stated they did not have the personnel resources to adequately service
        delinquent borrowers. As a result, loan officers neither detected severe
       cases of impropriety by borrowers nor identified the need for specific
       management assistance to borrowers.

--Annual collections could be increased by approximately $18.5 million over the
next five years if loans are referred to collection agencies on a more timely basis.
SBA procedures for referrals of delinquent borrowers to collection agencies are
initiated when a loss is recognized and the account removed from its active
receivables, i.e., charged-off, which averages approximately 30 months after an
account becomes delinquent. OMB Circular A-129 requires accounts six or more
months past due to be turned over to collection agencies.

--Restructuring SBA's procedures for processing field office receipts and
collecting bank loan guaranty fees could save SBA approximately $764,485 over
the next five years. The use of express mail to remit receipts and the receipt of
bank guaranty fees at field offices resulted in unnecessary costs to SBA and were
contrary to Treasury requirements. Treasury Financial Manual, part 6, chapter
8000, requires agencies to implement cost-effective procedures to accelerate cash
collections and ensure prompt deposit of receipts.

--The Government could maximize collections and detect delinquent borrowers
applying for additional Federal assistance if SBA improved its procedures for
referring delinquent borrowers to other agencies. Delinquent commercial loans
were not reported to other agencies for Federal salary offset, or to the Department
of Housing and Urban Development's (HUD), Credit Alert Interactive Voice
Response System (CAIVRS). Delinquent consumer loans were not referred on a
timely basis to credit bureaus or to the IRS as income to borrowers when written-
off. In addition, SBA did not have a formal administrative offset program to
collect delinquent amounts. OMB Circular A-129 establishes requirements for
referrals of delinquent accounts. SBA officials stated that SBA currently did not
have the system capability to comply with all OMB requirements and believed
some requirements were impractical.

On June 28, 1994, we held an exit conference with SBA officials from the Office
of Financial Assistance on the tentative results of our audit. On June 30, 1994, we
briefed the Deputy Director, Office of Financial Management, on issues related to
the Office of the Comptroller. SBA officials were generally in agreement with the
tentative results of our audit except for the issue relating to the untimely referral
of delinquent debt to collection agencies.

On March 6, 1995, we received written comments from SBA officials. SBA
officials agreed to take appropriate action on 10 of the 13 recommendations. SBA
officials non-concurred with recommendations which address: (1) referring
delinquent accounts to collection agencies and the Internal Revenue Service and
(2) including standardized restrictive covenants in loan agreements. We have
considered management's comments in finalizing our report. The written
comments are included as Appendix B.
We are making 13 recommendations to improve SBA's loan servicing and debt
collection activities which include: (1) implementing procedures to refer
delinquent accounts to collection agencies on a timely basis, (2) establishing
procedures to ensure loan officers perform effective site visits to delinquent
borrowers, (3) establishing procedures to require guaranty fees be electronically
fund transferred to Denver, and (4) updating SBA's system capabilities to ensure
appropriate referrals are made on all delinquent loans.


For more information on this report, call:
Peter McClintock
Assistant Inspector General for Auditing
202-205-7203

For a copy of the complete report, submit a Freedom of Information Act
request to:
Small Business Administration
Office of Inspector General
Assistant Inspector General for Management and Legal Counsel
409 Third St., SW
Washington, DC 20416-4111
202-205-6580
                OIG Reports Page                                                             OIG Home Page




                              OIG Reports Page                          OIG Home Page
                                           Search SBA   SBA Home Page         SBA Site Map




                                   SBA Webmaster, www@www.sba.gov


                                        Content: OIG@sba.gov
                                          * Updated: 2/4/98
